No. _ _ _ _ __

IN THE SUPREME COURT OF THE UNITED STATES
DAMENRABB,
Petitioner,
- v. -

CHRISTIAN PFEIFFER, Warden,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

CERTIFICATE OF SERVICE

BRIAN M. POMERANTZ (Bar #: 291976)*
P.O. Box 853
Carrboro, NC 27510
Habeas@protonmail.com
(323) 630-0049
Attorney for Defendant-Petitioner
*Counsel of Record

I, Brian M. Pomerantz, counsel of record, do swear that on this date, June 14,
2021, as required by Supreme Court Rule 29.5, I have served the enclosed Petition for

Writ of Certiorari on counsel for Respondent in the above proceeding, by depositing
an envelope containing the above documents in the United States mail properly
addressed to them and with first-class postage prepaid.
The names and addresses of those served are as follows:
Ana R. Duarte
Deputy Attorney General
300 South Spring Street, Suite 1702
Los Angeles, CA 90013

I declare under penalty of perjury that the foregoing is true and correct.
Executed on June 14, 2021.

Respectfully submitted,

Brian M. Pomerantz
Attorney for Petitioner

